                                  NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




       OFFICE OF
   INSPECTOR GENERAL




MEMORANDUM

Date:           April 3,1998

To:

Via:




Re :            Case Resolution


Background

On April 14, 1997, NSFOIG received an internal audit report from University o
                                                  NSF grant
                                           According to the audit repor
                                                 Energy (DOE) funde
                                                               commercial bank account to

Specifically, the audit report identified that, in early 1996                     approximately
$6,000 ($2,000 on January 9, 1996 and $4,000 on March 2              from the unauthorized bank


                       #
account. Then, on-four separate occasions (June 3, 1996, July 20, 1996, September 6, 1996, and
September 18, 1996),          wrote herself $11,600 worth of checks from this account by forging
           signature.        was dismissed in January 1997, and reimbursed      $18,600.


Investigation




checks, and reviewed other
                          NSFOIG interviewers obtained a signed affidavit fro-
                 dmitted to writing herself         forging-           name. Also, th
                                                                                        a
                                                                                       In the

                                                  We obtained copies of all of the questione
    I

              We identified sever                                                    ade misrepresentations in
                    US-IE forms,                                                     5s) 'and charged alcohol
              expenses related                                                           r -also        inflated
              guest attendance                                                       nt for meal expenses that
              exceeded the ap                                                         ns may have resulted in
              $10,816 in questionable costs, and this issue has been referred to t h e m f f i c e of Internal
              Audit for resolution. In addition, we have referred this issue to the DOE'S Office of Inspector
I             General. That office is now reviewin-OE-related               travel expenses for possible fraud.


              Referral and Case Resolution
'       --                                      -     --                          ~...           _       __            -~   .. ~.
                                                                                                                                ~,~
                                                                                                                                  - .   ---- ... ..
              On September 23, 1997, we referred this matter to the U.S. Attorney's Office for the Northern
              District of California, recommending that they pursue criminal action
                         While the U.S. Attorney's Office declined to take action agains
             w e d a n d was summoned to court on December 10, 1997.
              and Assistant . . Attorney C.                          entered an agreement for pretrial diversion of this
              matter. The terms of the                                     t h a e m a i n on supervised probation for
              18 months, obtain psychological counseling, and perform 200 hours of community service.
              s h o u 1 d i l ) v l o l a t e this probation, she will be liable for her actions which led to the pretrial
              diversion and the act which violated her probation.

              In addition, after reviewing the NSFOIG analysis of Form 5s submitted by
                   reimbursed the NSF grant $7,365 for unallowable alcohol and

              Due to lack of evidence to suggest other criminal or civil violations by - o w h e r
              investigation by NSFOIG is not warranted at this time. This case is closed.
